In The
SUPREME COURT OF THE UNITED STATES

EDWARD RONNY ARNOLD, PRO SE,
Petitioner,
v.
BURNS PHILLIPS COMMISSIONER STATE OF TENNESSEE DEPARTMENT OF
LABOR AND WORKFORCE DEVELOPMENT,
Respondent.

On Petition for Writ of Certiorari to the
United States Court of Appeals for the Sixth Circuit

CERTIFICATE OF SERVICE
I, Edward Ronny Arnold, Pro Se, certify that on this 2 day of October 2019, three
copies of the Petition for Writ of Certiorari were served by certified return receipt
mail upon counsel for Respondent as required by Tenn. R. Civ. P. 4.04 (6).
Tenn. R. Civ. P. 4.04 (6) requires the Respondent to be served through the State of
Tennessee Attorney General and Reporter, Herbert Slatery, III.
Counsel for Respondent
Herbert Slatery, III
State of Tennessee Attorney General and Reporter
Rachel Jackson Building
320 6th Avenue North
Nashville, Tennessee 37245

A

Edward Ronny Arnold, Pro Se
5036 Suter Drive
Nashville, Tennessee 37211
(615) 999-8044
Pro Se Litigant
Dated: October 2, 2019

<

